No. 19-1098

 

 

IN THE

Supreme Court of the United States

NATIONAL FOOTBALL LEAGUE, ET AL.,

Petitioners,
v.

NINTH INNING, INC., ET AL.,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

Brief of Amici Curiae Antitrust Law and
Business School Professors, and Economists
In Support of Petition for a Writ of Certiorari

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,815 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 8, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
